      Department of Homeland Security





            The State of New York Needs to Sign Mission 

                    Assignments More Quickly 





OIG-13-85                                            April 2013

                            OFFlCr.     or INSPECTOR GENERAL
                                            I o f HomdlUld




                                        APR 3 0 1013

MEMORANDUM FOR:                 Debora h Ingram


                                                                  nt Agency

FROM:
                                As$lstant In spector General
                                Office of Emergency Managemen t OIIerslght

SUBIECT:                        The Store   of Ne w York Nms To Sign Mission Assignment!;
                                More   Quickly

Attached for your inform ation Is o ur final lett er report, The State of N!!w York Need5
To Sign Mission Assignments More Quickly.

In response to qu estions asked by FEMA officiills in New York, our office Initiated iI
review of HurriCil ne Sandy mission assignments in New York. We discusse d the results
o r t hls a ud it with FEM Aofficlals during the co urse o r the audit. We also provided a
discuSSion draft report to FEMA on FeblUary 15, 2011.

Th e report contams one recommendation a'mi'd at improving the m iSSion assignment
process. You r office has concu rred with t he recommendation, so we co nsider t his
recomme ndation implemented ilnd closed. Since the re commendation Is closed, you dQ
not need to provide Qur office wit h a written respoMe.

Consistent with our responsibility und er the Inspector General Act, we are providing
eoples of our report to appropriate congressio nal comm ittees with overslaht and
appropri ation responsibility oller the Department of Homeland St!-curity. We will post
the report on our web~ite for publ k di s~ mination.

Please call me with any questions, or your stafr maY(;Qntact John Kelly, OeputV Assistant
Inspector Gene ral, Offic~ o f Emergency Managemen t Oversigh t, at (202)254-4100.


Attachmen t
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Background
   Hurricane Sandy made landfall on October 29, 2012, near Atlantic City, New Jersey. The
   storm was the second largest Atlantic hurricane on record, with a diameter of tropical
   storm force winds spanning more than 900 miles, and it affected one of the most
   densely populated areas in the northeastern United States. The storm affected coastal
   and inland communities resulting in loss of life, major flooding, structural damage, and
   power loss to more than 8.5 million homes and businesses, directly affecting more than
   17 million individuals. The President declared a disaster for New Jersey and for New
   York on October 30, 2012. Because of the devastation caused by the storm and the
   impacted population, the President provided direction that all Federal agencies were to
   lean forward and “cut through” bureaucracy and red tape in efforts to expedite
   response aid to survivors.

   One significant role of the Federal Emergency Management Agency (FEMA) is to work
   with the State and identify any unmet needs and to coordinate Federal activities to
   fulfill these needs. The RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct
   and 44 Code of Federal Regulations (CFR) Part 206 provide the statutory authority for
   Federal disaster response activities. One way in which FEMA facilitates the Federal
   response and recovery activities is through the use of mission assignments. Mission
   assignments are a way to task and reimburse other Federal departments and agencies for
   providing essential assistance prior to and after a disaster.

   Mission Assignments

   A mission assignment can fall into one of three categories, driven by the recipient of the
   service and the type of service provided, they are—

       •	   Federal Operations Support (FOS) – Requested by a Federal agency to support
            Federal operations. This activity is 100 percent federally funded. An example of
            this type of mission assignment is transporting Department of Homeland
            Security (DHS)/FEMA assets to a specific location.

       •	   Technical Assistance (TA) – Requested by the State for expertise provided to
            State and local jurisdictions when they have the resources but do not have the
            knowledge and skills needed to perform the required activity. This activity is
            100 percent federally funded. An example of this type of mission assignment is
            for the U.S. Army Corps of Engineers to provide technical oversight to the State
            when they are writing debris removal contracts.




www.oig.dhs.gov                                 2	                                      OIG-13-85
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


       •	   Direct Federal Assistance (DFA) – Requested by the State for resources provided
            to affected State and local jurisdictions when they do not have the resources to
            provide specific types of disaster assistance. This activity is subject to the cost
            share provision designated for that specific disaster. Cost share provisions are
            normally 75 percent Federal share and 25 percent State share. However, the
            President can waive the cost-share requirement and make this type of assistance
            100 percent federally funded. An example of this type of mission assignment is
            providing generators.

   The mission assignment process begins in anticipation of or in response to a President’s
   declaration of emergency or major disaster and the State decides whether Federal
   assistance is needed. When the State decides that Federal assistance is needed they will
   sign a FEMA-State agreement for the disaster. Without this document, Federal
   assistance cannot begin. With the FEMA-State agreement signed, the State will submit
   an Action Request Form to request assistance from the Federal Government. FEMA will
   evaluate and determine how to respond to the request. Not all requests will result in a
   mission assignment, but when it is decided that a mission assignment is the best course
   of action for meeting the assistance needs, then FEMA will assign a project manager to
   the mission assignment and the assigned Federal agency will appoint an action officer.
   The project manager and the action officer will meet and determine how the task will be
   accomplished, prepare the Statement of Work, and develop the period of performance
   and cost estimate. The completed mission assignment will then be sent to the mission
   assignment manager, FEMA project manager, and Federal approving official. For
   Technical Assistance and Direct Federal Assistance mission assignments, the State
   approving official will also have to sign the completed mission assignment. After the
   mission assignment is signed by all, the mission assignment amount is entered as an
   obligation in FEMA’s financial system. The assigned Federal agency will then begin the
   execution of the mission assignment. When work is completed, the assigned Federal
   agency will submit a reimbursement request to FEMA.

   Hurricane Sandy Mission Assignments in New Jersey and New York

   As shown in table 1, FEMA issued more than 200 mission assignments totaling $657.7
   million to support Hurricane Sandy response and recovery activities in New York and
   New Jersey.. This report focuses on Direct Federal Assistance mission assignments
   because the Federal Government may incur a financial risk if a State does not provide its
   cost share for work done during a Presidentially declared disaster. Without proper
   signatures from the State indicating their agreement with the mission assignment and
   the costs, the Federal Government is at risk of nonpayment by the State for their cost
   share. Although the combined number of Federal Operations Support and Technical
   Assistance mission assignments is greater than the number of Direct Federal Assistance
   mission assignments, Federal Operations Support and Technical Assistance mission


www.oig.dhs.gov                                  3	                                      OIG-13-85
                                     OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   assignments are 100 percent federally funded and therefore do not contain a State cost
   share. In addition, the amount of money associated with Direct Federal Assistance
   mission assignments far exceeds the money associated with Federal Operations Support
   and Technical Assistance mission assignments.

   Table 1. Hurricane Sandy Mission Assignments and Their Associated Costs

               FOS and TA
                 Mission                  Total $    DFA Mission    Total $    Total Mission      Total $
    State      Assignments               (million)   Assignments   (million)   Assignments       (million)
      NJ            83                     $79.1          33        $169.9          116           $249.0
     NY             88                   $103.1           34        $305.6          122           $408.7
    Totals         171                   $182.2           67        $475.5          238           $657.7
   Source: FEMA ECAPS as of 11/30/2012



   Results of Audit
   More than 2 months after Hurricane Sandy, New York had not signed 12 Direct Federal
   Assistance mission assignments totaling $47 million, exposing FEMA to about $11.7
   million in potential liability if New York did not accept its financial responsibility for
   responding to the devastation caused by Hurricane Sandy. In response to Hurricane
   Sandy’s unprecedented damage, FEMA issued more than 200 mission assignments
   totaling $657.7 million to support response and recovery activities in New York and New
   Jersey. Although New York ultimately signed all mission assignments, New York should
   have signed the 12 Direct Federal Assistance mission assignments in question much
   sooner, and before the Office of Inspector General made inquiries concerning why they
   were not signed.

   New York Should Have Signed Its Mission Assignments With Federal-State Cost Share
   Earlier

   As of early January 2013, New York had not signed 12 Direct Federal Assistance mission
   assignments totaling $47 million, thus exposing FEMA to paying the State cost share of
   those mission assignments of $11.7 million. Although FEMA provided New York with a
   total of 34 Direct Federal Assistance mission assignments valued at $305.6 million, the
   New York approving officers did not sign and thus accept New York’s responsibility for
   the 12 mission assignments until January 15, 2013, more than 2.5 months after
   Hurricane Sandy devastated parts of New York City.

   FEMA relaxed its policy that requires the State approving official to sign Direct Federal
   Assistance mission assignments before work can be performed, when the President
   declared a disaster for New York. The President provided direction that all Federal


www.oig.dhs.gov                                          4                                     OIG-13-85
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   agencies were to lean forward and “cut through” bureaucracy and red tape in efforts to
   expedite response aid to survivors. As a result, the State approving official did not sign
   or approve the Direct Federal Assistance mission assignments before they were issued,
   which put the State cost share at risk of not being collected.

   In November 2012, FEMA’s New York Joint Field Office staff informed us that they were
   having problems with the State of New York signing mission assignments. We learned in
   December that the New York approving officials signed all but 12 New York Direct
   Federal Assistance mission assignments totaling about $47.0 million. The State cost
   share for these 12 direct Federal assistance mission assignments was $11.7 million.

   We contacted the New York State approving office on January 3, 2013, to obtain reasons
   why they had not signed the 12 mission assignments. State of New York officials
   responded on January 16, 2013, asking for a list of the 12 mission assignments. We
   provided them with a list but did not receive a response.

   On January 30, 2012, we asked FEMA for an update on the status of mission
   assignments. FEMA informed us that all mission assignments for New York were signed
   on January 15, 2013.

   Although the New York State approving officers eventually signed all of the previously
   unsigned mission assignments, FEMA needs to ensure that all direct Federal assistance
   mission assignments are signed in a timely manner so that States accept their cost-share
   responsibilities and FEMA does not end up paying the State cost share.

   Conclusion

   FEMA did follow the President’s directive to “cut through” bureaucracy and red tape in
   efforts to expedite response to survivors by appropriately providing mission
   assignments to the State of New York in a timely manner. However, when FEMA cuts
   through bureaucracy and red tape to expedite response to survivors, the States that
   received the expedited assistance need to accept their responsibility timely for paying
   their share of the cost of that response. Although New York State quickly accepted
   responsibility for the majority of its portions of the disaster assistance costs, it took
   roughly 2.5 months to accept its responsibility on 12 mission assignments. New York
   should have signed the 12 mission assignments in question much sooner, and it should
   not take inquires by the Office of Inspector General to get them signed.


   Recommendation




www.oig.dhs.gov                                5                                        OIG-13-85
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   We recommend that the Federal Emergency Management Agency Assistant
   Administrator for Response:

           Recommendation #1: Work with the State of New York to sign the 12 mission
           assignments in question and eliminate the risk that FEMA would have to pay the
           State’s cost share of $11.7 million.

           Because the State of New York signed the 12 mission assignments in January
           2013, after we started inquiring about their status, we consider the
           recommendation closed and implemented.




www.oig.dhs.gov                               6                                     OIG-13-85
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this review was to determine the monetary risk associated with issuing
   Direct Federal Assistance mission assignments without the State approving the cost
   share. We conducted this review by applying the statutes, regulations, and FEMA policies
   and guidelines in effect at the time of our fieldwork. We interviewed FEMA officials and
   performed other procedures considered necessary to accomplish our objective. We did
   not assess the adequacy of the agency’s internal controls applicable to the mission
   assignment activities because it was not necessary to accomplish our audit objective.

   We conducted this performance audit between November 2012 and January 2013,
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                               7                                       OIG-13-85
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   DHS FEMA Liaison
   Director of Local Affairs, Office of Intergovernmental Affairs
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Associate Administrator for Policy and Program Analysis
   Director, Program Analysis and Evaluation Division
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform
   House Committee on Transportation and Infrastructure


www.oig.dhs.gov                                 8                          OIG-13-85
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
